Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    LOUISIANA RECEIVED
  MORE THAN $7.1 MILLION IN
    UNALLOWABLE BONUS
         PAYMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                        July 2014
                                                      A-04-14-08029
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Louisiana received more than $7.1 million in unallowable performance bonus payments
 under the Children’s Health Insurance Program Reauthorization Act for fiscal years 2009
 through 2011.

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid. In a previous audit of CHIPRA bonus payments in another
State (A-04-12-08014), we found millions of dollars in unallowable bonus payments; therefore,
we identified CHIPRA bonus payments as a high-risk area.

We reviewed the bonus payments that Louisiana received for FYs 2009 through 2011 because
preliminary analysis indicated inconsistencies between the enrollment of children in Medicaid
that Louisiana reported when requesting bonus payments and the enrollment reflected in the
Medicaid Statistical Information System maintained by the Centers for Medicare & Medicaid
Services (CMS). Louisiana received more than $7.1 million in bonus payments for the FYs we
reviewed.

The objective of our audit was to determine whether the bonus payments that Louisiana received
were allowable in accordance with Federal requirements.

BACKGROUND

CMS administers the Medicaid program at the Federal level and is the agency responsible for
determining whether a State meets the requirements to receive a bonus payment and, if so, what
the amount of a State’s bonus payment should be. CMS makes its determinations, in part, on the
basis of Medicaid enrollment information that the States provided in their requests for bonus
payments. The Louisiana Department of Health and Hospitals (State agency) administers
Louisiana’s Medicaid program and is the agency that requested the bonus payments Louisiana
received for FYs 2009 through 2011 (audit period).

A State is eligible for a bonus payment if, among other requirements, it increases its current
enrollment of qualifying children (current enrollment) above the baseline enrollment of
qualifying children for a given year as specified in CMS guidance.

WHAT WE FOUND

The bonus payments that Louisiana received for the audit period were not allowable in
accordance with Federal requirements. Most of the data used in Louisiana’s bonus payment
calculations was in accordance with Federal requirements. However, the State agency overstated
its FYs 2009 through 2011 current enrollment in its bonus requests to CMS because it included


Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)          i
individuals who did not qualify because of their basis-of-eligibility code. If the State agency had
calculated its current enrollment in accordance with Federal requirements, the current enrollment
would not have exceeded baseline enrollment by an amount sufficient for Louisiana to qualify
for bonus payments. As a result, CMS overpaid Louisiana $7,124,602 in bonus payments.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $7,124,602 to the Federal Government and

    •   ensure that future requests for CHIPRA bonus payments include only qualifying children
        to comply with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding that the
CHIPRA bonus payments that Louisiana received for the audit period included individuals who
did not qualify because of their basis-of-eligibility code. State agency officials also said that
they would ensure that future requests for CHIPRA bonus payments include only qualifying
children, in accordance with Federal requirements.




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)             ii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                The Medicaid Program: How It Is Administered ................................................ 1
                Louisiana’s Medicaid Management Information System and
                  CMS’s Medicaid Statistical Information System .............................................. 1
                Bonus Payments .................................................................................................... 2

          How We Conducted This Review..................................................................................... 2

FINDINGS             ............................................................................................................................... 3

          The State Agency Did Not Calculate Current Enrollment in Accordance With
           Federal Requirements ................................................................................................... 3

          Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments.............. 4

RECOMMENDATIONS .............................................................................................................. 4

STATE AGENCY COMMENTS ................................................................................................. 4

APPENDIXES

          A: Current Enrollment Calculations ............................................................................... 5

          B: Audit Scope and Methodology ................................................................................... 7

          C: Federal Requirements Related to Bonus Payments ................................................... 9

          D: State Agency Comments ........................................................................................... 11




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)                                                                  iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid. In a previous audit of CHIPRA bonus payments in another
State, 1 we found millions of dollars in unallowable bonus payments; therefore, we identified
CHIPRA bonus payments as a high-risk area.

We reviewed the bonus payments that Louisiana received for FYs 2009 through 2011 because
preliminary analysis indicated inconsistencies between the enrollment of children in Medicaid
that Louisiana reported when requesting bonus payments and the enrollment reflected in the
Medicaid Statistical Information System (MSIS) maintained by the Centers for Medicare
& Medicaid Services (CMS). Louisiana received more than $7.1 million in bonus payments for
the FYs we reviewed.

OBJECTIVE

Our objective was to determine whether the bonus payments that Louisiana received were
allowable in accordance with Federal requirements.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. Although the State has considerable flexibility in designing and operating its
Medicaid program, it must comply with applicable Federal requirements. CMS administers the
Medicaid program at the Federal level. The Louisiana Department of Health and Hospitals
(State agency) administers Louisiana’s Medicaid program.

Louisiana’s Medicaid Management Information System and
CMS’s Medicaid Statistical Information System

Section 235 of the Social Security Amendments of 1972, P.L. No. 92-603, provided for
90-percent Federal financial participation (FFP) for the design, development, or installation and
75-percent FFP for the operation of eligible State mechanized claims processing and information
retrieval systems. For Medicaid purposes, the mechanized claims processing and information
retrieval system is the Medicaid Management Information System (MMIS).

1
 Alabama Received Millions in Unallowable Performance Bonus Payments Under the Children’s Health Insurance
Program Reauthorization Act (A-04-12-08014, issued August 27, 2013).


Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)                  1
The MMIS is an integrated group of procedures and computer processing operations
(subsystems) designed to improve Medicaid program and administrative cost controls, service to
beneficiaries and providers, operations of claims control and computer capabilities, and
management reporting for planning and control.

Under the Balanced Budget Act of 1997, P.L. No. 105-33, States are required to submit
Medicaid eligibility and claims data to CMS through the MSIS. The purpose of the MSIS is to
collect, manage, analyze, and disseminate information on eligibility, utilization, and payment for
services covered by State Medicaid programs. CMS uses MSIS data to produce Medicaid
program characteristics and utilization information. Some of the information that States report
for Medicaid-eligible individuals are date of birth, race, sex, and basis of eligibility (BOE).

Bonus Payments

CHIPRA, P.L. No. 111-3, directly affects both the Children’s Health Insurance Program under
Title XXI of the Social Security Act (the Act) and Medicaid under Title XIX of the Act. Under
CHIPRA, qualifying States may receive bonus payments for FYs 2009 through 2013 to offset the
costs of increased enrollment of children in Medicaid. A State is eligible for a bonus payment if
it increased its current enrollment of qualifying children (current enrollment) above the baseline
enrollment of qualifying children (baseline enrollment) for a given year as specified in CMS
guidance. A State must also have implemented at least five of the Medicaid enrollment and
retention provisions specified in CHIPRA.

CMS is responsible for determining whether a State meets the requirements to receive a bonus
payment and, if so, the amount of a State’s bonus payment. CMS makes its determinations, in
part, on the basis of Medicaid enrollment information that the State provided in its requests for
bonus payments. The State agency requested the bonus payments that Louisiana received for
FYs 2009 through 2011. Appendix A contains the details of Louisiana’s current enrollment
calculations for these FYs.

HOW WE CONDUCTED THIS REVIEW

We reviewed the bonus payments that Louisiana received for FYs 2009 through 2011 (audit
period), totaling $1,548,387, $3,661,104, and $1,915,111, respectively. Our review focused on
verifying the accuracy of enrollment information used in the bonus payment calculations and
ensuring that the information used complied with Federal requirements. We neither assessed the
State agency’s internal control structure beyond what was necessary to meet our objective nor
reviewed the State agency’s determinations of Medicaid eligibility. Also, we did not review
whether the State agency successfully implemented at least five of the Medicaid enrollment and
retention provisions because we determined that there was a low risk of noncompliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)             2
Appendix B contains the details of our scope and methodology, and Appendix C contains the
Federal requirements related to bonus payments.

                                                  FINDINGS

The bonus payments that Louisiana received for the audit period were not allowable in
accordance with Federal requirements. Most of the data used in Louisiana’s bonus-payment
calculations was in accordance with Federal requirements. However, the State agency overstated
its FYs 2009 through 2011 current enrollment in its bonus requests to CMS because it included
individuals who did not qualify because of their BOE code. If the State agency had calculated its
current enrollment in accordance with Federal requirements, current enrollment would not have
exceeded baseline enrollment by an amount sufficient for Louisiana to qualify for bonus
payments. As a result, CMS overpaid Louisiana $7,124,602 in bonus payments.

THE STATE AGENCY DID NOT CALCULATE CURRENT ENROLLMENT
IN ACCORDANCE WITH FEDERAL REQUIREMENTS

The State agency reported CHIPRA current enrollments of 681,220, 724,032, and 732,105 for
FYs 2009 through 2011, respectively. According to CMS guidance, 2 a State should calculate
CHIPRA current enrollment using the same State institutional data sources, such as the State’s
MMIS, that it uses for reporting under MSIS.

Furthermore, the State’s current enrollment should include only individuals whom the State
identifies and reports as having a BOE of “child” in the MSIS. Specifically, CMS guidance
defines BOE codes of “child” only as follows:

      •   Code 4: Child (not Child of Unemployed Adult, not Foster Care Child);

      •   Code 6: Child of Unemployed Adult (optional); and

      •   Code 8: Foster Care Child.

CMS established this guidance to ensure that States consistently use the same information and
basis (i.e., BOE codes) that CMS uses to develop States’ baseline enrollment. 3

The State agency used data from its MMIS to calculate its current enrollment, which was the
same data source it used for MSIS reporting. However, the State agency did not follow CMS
guidance to include in its CHIPRA current enrollment only individuals with a BOE of “child” in
the MSIS. In addition to the above three BOE categories, the State agency incorrectly included
individuals from other BOEs, such as BOE code 2, “Blind and Disabled,” in its reports of
CHIPRA current enrollments to CMS, which inflated its current enrollment numbers. Had it


2
    CMS, SHO Letter #09-015, CHIPRA #10, and CMS BP-Clarification3.docx.
3
 The baseline enrollment level for a State is based on a formula that considers such factors as the levels of
qualifying children under the Medicaid program and various adjustment factors that account for population growth.


Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)                             3
followed Federal requirements, the State agency would have reported the correct number for
current enrollment for FYs 2009 through 2011 as depicted in Table 1.

                               Table 1: Louisiana Medicaid Enrollment

                    Current Enrollment 4             FY 2009        FY 2010        FY 2011
                    State-reported number             681,220        724,032        732,105
                    Correct number                    645,284        685,536        692,015
                     Overstatement                     35,936         38,496         40,090

LOUISIANA RECEIVED MORE THAN $7.1 MILLION
IN UNALLOWABLE BONUS PAYMENTS

CMS calculated excessive CHIPRA bonus payments to Louisiana totaling $7,124,602 because
the State agency overstated its CHIPRA current enrollments for FYs 2009 through 2011. (See
Table 1.) If the State agency had correctly stated its current enrollment, it would not have
exceeded baseline enrollment, and the State would not have been eligible for bonus payments.
As a result of overstating current enrollments, Louisiana’s bonus payments of $1,548,387,
$3,661,104, and $1,915,111 for FYs 2009 through 2011, respectively, were all unallowable.

                                         RECOMMENDATIONS

We recommend that the State agency:

    •   refund $7,124,602 to the Federal Government and

    •   ensure that future requests for CHIPRA bonus payments include only qualifying children
        to comply with Federal requirements.

                                    STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding that the
CHIPRA bonus payments that Louisiana received for the audit period included individuals who
did not qualify because of their BOE code. State agency officials also said that they would
ensure that future requests for CHIPRA bonus payments include only qualifying children, in
accordance with Federal requirements. The State agency’s comments are included in their
entirety as Appendix D.




4
 See Appendix A, Tables 2 and 3, for a monthly detail of the State’s reported current enrollment numbers and our
calculated current enrollment numbers.


Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)                            4
               APPENDIX A: CURRENT ENROLLMENT CALCULATIONS

EXPLANATION OF CURRENT ENROLLMENT CALCULATION

In accordance with Federal requirements, the CHIPRA current enrollment for any given FY
should be calculated by:

    •   obtaining the number of qualifying children in every month of the FY,

    •   summing the monthly count of qualifying children for the FY, and

    •   dividing the sum for the FY by 12 to obtain the monthly average number of qualifying
        children for the FY.

STATE AGENCY’S CALCULATION OF FISCAL YEARS 2009 THROUGH 2011
CURRENT ENROLLMENT
The State agency calculated its CHIPRA current enrollments for each of the three FYs (2009
through 2011) by running a query on its MMIS. However, the State agency used a different
methodology from that established in CMS guidance to compile its current enrollment. On the
basis of this guidance, a State’s current enrollment should only include individuals whom the
State identifies and reports as a BOE of “child” when reporting MSIS enrollment data.
However, the State agency also included in its CHIPRA current enrollment individuals who were
classified as a BOE other than “child,” thus overstating its current enrollment numbers.

                    Table 2: State Agency’s Reported Current Enrollments
                                                        Qualifying Children
             Month                    FY 2009                 FY 2010                  FY 2011
    Oct                                670,386                 700,869                  737,195
    Nov                                670,721                 702,463                  737,199
    Dec                                672,573                 719,122                  732,107
    Jan                                674,614                 721,134                  732,436
    Feb                                676,156                 722,014                  732,104
    Mar                                678,878                 727,185                  731,203
    Apr                                681,317                 728,557                  729,448
    May                                683,364                 729,567                  729,710
    Jun                                686,252                 731,346                  730,342
    Jul                                689,993                 733,134                  730,687
    Aug                                693,717                 736,052                  732,311
    Sep                                696,673                 736,935                  730,518
     Total                           8,174,644               8,688,378                8,785,260
        Monthly Average
           (Total/12)                  681,220                   724,032                  732,105




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)             5
OFFICE OF INSPECTOR GENERAL’S CALCULATION OF
FISCAL YEARS 2009 THROUGH 2011 CURRENT ENROLLMENT
In accordance with Federal requirements, we calculated Louisiana’s CHIPRA current
enrollments for FYs 2009 through 2011 by having the State agency run a query on its MMIS
data and extracting only those individuals whom the State would identify and report as a BOE of
“child” (i.e., BOE codes 4, 6, and 8) when reporting MSIS enrollment.

                         Table 3: OIG Calculated Current Enrollments

                                                        Qualifying Children
             Month                       FY 2009                FY 2010                FY 2011
    Oct                                   634,566                662,805                697,718
    Nov                                   634,631                664,273                697,599
    Dec                                   636,454                680,989                692,287
    Jan                                   638,335                682,982                692,434
    Feb                                   639,949                683,855                691,863
    Mar                                   642,707                688,824                690,755
    Apr                                   645,186                690,267                688,889
    May                                   647,344                691,083                689,049
    Jun                                   650,522                692,607                689,687
    Jul                                   654,512                694,212                689,995
    Aug                                   658,005                696,857                691,832
    Sep                                   661,194                697,680                692,075
     Total                              7,743,405              8,226,434              8,304,183
        Monthly Average
           (Total/12)                     645,284                  685,536                692,015




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)             6
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the bonus payments that the State agency received for FYs 2009 through 2011,
totaling $1,548,387, $3,661,104, and $1,915,111, respectively. Our review focused on verifying
the accuracy of enrollment information used in the bonus payment calculations and ensuring that
the information used complied with Federal requirements. We neither assessed the State
agency’s internal control structure beyond what was necessary to meet our objective nor
reviewed the State agency’s determinations of Medicaid eligibility. Also, we did not review
whether the State agency successfully implemented at least five of the Medicaid enrollment and
retention provisions because we determined that there was a low risk of noncompliance.

We performed fieldwork at the State agency offices in Baton Rouge, Louisiana, from
November 2013 through February 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements;

    •   held discussions with CMS financial management officials to obtain an understanding of
        the process that States should follow when requesting bonus payments;

    •   reviewed CMS’s detailed calculations 5 of Louisiana’s bonus payments for FYs 2009
        through 2011;

    •   verified supporting documentation for all data elements used in Louisiana’s bonus
        payment calculations, including baseline enrollment and projected per capita State
        Medicaid expenditures;

    •   conducted a risk assessment of the State agency’s noncompliance with Federal
        requirements;

    •   met with State agency officials to:

            o discuss the State agency’s requests for bonus payments,

            o obtain correspondence between the State agency and CMS,

            o understand the State agency’s methodology for determining the current
              enrollment reported in its requests for bonus payments, and

5
 Appendix II of CMS, SHO Letter #09-015, CHIPRA #10, describes the data elements, processes, and
methodologies for calculating the bonus payments.


Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)            7
            o understand the State agency’s process for reporting MSIS enrollment data;

    •   analyzed the State agency’s documentation supporting its requests for bonus payments;

    •   reviewed the State agency’s MMIS enrollment data;

    •   reviewed Louisiana’s enrollment and expenditure data from the CMS MSIS State
        Summary Datamart;

    •   calculated Louisiana’s FYs 2009 through 2011 current enrollment;

    •   recalculated Louisiana’s bonus payments using correct, verified data; and

    •   discussed the results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)         8
                               APPENDIX C: FEDERAL REQUIREMENTS
                                  RELATED TO BONUS PAYMENTS

PURPOSE OF THE BONUS PAYMENTS AND
BASELINE CALCULATION METHODOLOGY

Section 2105(a)(3) of the Act states that performance bonus payments are intended to offset
additional Medicaid and Children’s Health Insurance Program child enrollment costs resulting
from enrollment and retention efforts. The payments are made to a State for a FY as a single
payment not later than the last day of the first calendar quarter of the following FY. 6 Additional
guidance that CMS provided 7 requires that payments to qualifying States be made by
December 31 of the calendar year (CY) following the end of the FY for which the criteria were
implemented. The bonus payments are provided to a State through a grant award.

Section 2105(a)(3)(C)(iii)(I) of the Act states that the baseline number of child enrollees for
FY 2009 “is equal to the monthly average unduplicated number of qualifying children enrolled
in the State plan under title XIX during FY 2007 increased by the population growth for children
in that State from 2007 to 2008 (as estimated by the Bureau of the Census) plus 4 percentage
points, and further increased by the population growth for children in that State from 2008 to
2009 (as estimated by the Bureau of the Census) plus 4 percentage points ….” 8

For each of FYs 2010, 2011, and 2012, the baseline number of child enrollees “is equal to the
baseline number of child enrollees for the State for the previous FY under title XIX, increased by
the population growth for children in that State from the CY in which the respective FY begins
to the succeeding CY (as estimated by the Bureau of the Census) plus 3.5 percentage points.” 9

CMS established the baseline enrollment for each State using all of the “MSIS Coding
Categories” for which States report individuals under the BOE of “child” in their Medicaid
programs. Specifically, these BOEs are identified as BOEs 4, 6, and 8.10

CMS provided further guidance to Louisiana on October 27, 2009. The guidance states:

           We recognize that the FY 2007 baseline enrollment data obtained from MSIS may
           not represent an exact one-to-one mapping for each of the above statutory
           eligibility categories. However … the baseline enrollment data represents all
           individuals identified and reported by each State with a BOE of “child”; we
           believe this approach appropriately addresses the intent of the statute in a way that
           is operationally feasible. 11

6
    Section 2105(a)(3)(A) of the Act.
7
    CMS, SHO Letter #09-015, CHIPRA #10.
8
    Enrollment data for FY 2007 were obtained from the MSIS.
9
    Section 2105(a)(3)(C)(iii)(II) of the Act.
10
     CMS, SHO Letter #09-015, CHIPRA #10.
11
     CMS BP-Clarification3.docx.

Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)               9
CMS GUIDANCE FOR CURRENT ENROLLMENT CALCULATION

In its guidance to Louisiana on October 27, 2009, CMS clarified that States should include a
description of the data sources and the methodologies they used to appropriately identify
individuals with a BOE of “child” when reporting current enrollment.

The instructions relating to the average monthly enrollment for children were reiterated in an
email from CMS to the State agency on December 12, 2011. The email stated, “The same logic
and basis that was used for developing the FY 2007 baseline should be used by each State
for submitting the average monthly enrollment for children for the current fiscal year for
which the bonus payment is being determined” (original emphasis).




Louisiana Received More Than $7.1 Million in Unallowable Bonus Payments (A-04-14-08029)        10
Bobby J indal 	                                                                                                                   Kathy H. KJicbcrt
 ( ;()\'l iRNOR                                                                                                                      :;t ~Citi~T \ I~Y




                                              State of Louisiana
                                             Department of Health and Hospitals 

                                                    Bureau o f Health SctYiccs Financing 


              VIA POSTAL AND ELECTRON IC MAIL

              June 16,20 14

              Ms. Lori Pilc he r
              Regional inspecto r General
              Office of Audit Services, Region IV
              6 1 Forsyth St., SW. Suite 3T4 1
              A tla nta, GA 30303

              Dear Ms . Pilcher:

              RE: Report Numbe r: A-04- 14-08029

              We have reviewed the drafl report entitled Louisiana Received t\1/ore Than $ 7.1 Million in
              Unallowable Bonus Payments and concur with the finding that C HIPRA bonus payme nts
              Loui s iana received for the audit period included individuals who did not qualify on the
              basis-of-eli g ibility code. The State wi ll ensure that future requests fo r C HIPRA bonus
              payments include onl y qualitying chi ldren in accordance with Federal requireme nts.

              Should you have quest ions regarding this letter, please contact .le n Stee le, Medicaid
              De puty Director, at (33 7) 354-5750 or jen.stcclercrla.gov.

              Sincerel y,



              J. Ruth Kennedy
              Medicaid Director


              JRKJJLS

              c: 	    Diane Batts
                      Ford Blunt
                      M a ry Johnson
                      Kathy Kli ebert
                      J e n Steele


                            llicm•illc Ouilding • 628 North 4'" S treet • P.O . Dux 91030 • Dawn Roug<·, Louisi:ma 70821-9030 

                                   Pho ne#: 225/ 342-9240 • Fa;~: # : 225/ 3-12-9598 • wn1v.MakingM cdiroidBeucr.cum 

                                                          "An Equal 0 Jlpurtunity E mployer'' 




          Louisiana Received More Than $7.11v1illion in Unallowable Bonus Payments (A-04-14-08029)                                         11
